                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00684-132




     Combined Assessment Program 

             Review of the 

         VA Northern Indiana 

          Health Care System 

          Fort Wayne, Indiana 





April 28, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



                                               Glossary
                 CAP             Combined Assessment Program
                 CLC             community living center
                 EHR             electronic health record
                 EOC             environment of care
                 facility        VA Northern Indiana Health Care System
                 FY              fiscal year
                 MEC             Medical Executive Committee
                 MH              mental health
                 NA              not applicable
                 NM              not met
                 OIG             Office of Inspector General
                 PRC             Peer Review Committee
                 QM              quality management
                 VHA             Veterans Health Administration
                 VISN            Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                   CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                  10

  Coordination of Care ...............................................................................................            11

  Nurse Staffing .........................................................................................................        12

  Pressure Ulcer Prevention and Management .........................................................                              13

  CLC Resident Independence and Dignity ...............................................................                           15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   23

  E. OIG Contact and Staff Acknowledgments .........................................................                              32

  F. Report Distribution .............................................................................................            33

  G. Endnotes ...........................................................................................................         34





VA OIG Office of Healthcare Inspections
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 3, 2014.

Review Results: The review covered seven activities.                            We     made     no
recommendations in the following three activities:

 Medication Management

 Coordination of Care

 Nurse Staffing

Recommendations: We made recommendations in the following four activities:
Quality Management: Consistently complete actions from peer reviews, and report them
to the Peer Review Committee. Require the Medical Executive Committee to discuss
and document its approval of the use of another facility’s physicians for teledermatology
services.     Obtain teledermatology physicians’ professional practice evaluation
information from the providing facility. Consistently perform continuing stay reviews on
at least 75 percent of patients in acute beds. Ensure that the Acute Care Committee
reviews each code episode and that code reviews consistently include screening for
clinical issues prior to the code that may have contributed to the occurrence of the code.
Keep the recipient list current for the automated e-mail notification for the patient
incident reporting process. Review the quality of entries in the electronic health record
at least quarterly. Require the quality control policy for scanning to include how a
scanned image is annotated to identify that it has been scanned. Ensure that a member
from Anesthesia Service attends Transfusion Utilization Committee meetings and that
the blood/transfusions usage review process includes the results of proficiency testing
and the results of peer reviews when transfusions did not meet criteria.

Environment of Care: Comply with Veterans Health Administration and local smoke free
policies. Ensure the Veterans Integrated Service Network 11 Director establishes a
non-facility team to conduct a comprehensive environment of care evaluation of the
facility. Establish a policy for equipment inspection and testing. Post signs in waiting
and procedure rooms within radiology asking female patients to notify staff if they may
be pregnant. Ensure that expired medications are removed from radiology crash carts
and that clinical staff are trained on how to locate the crash cart expiration date.
Require that all occasional locked mental health unit workers receive training on
identifying and correcting environmental hazards, content and proper use of the Mental
Health Environment of Care Checklist, and VA’s National Center for Patient Safety
study of suicide on psychiatric units.



VA OIG Office of Healthcare Inspections                                                           i
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Pressure Ulcer Prevention and Management: Establish an interprofessional pressure
ulcer committee. Perform and document a patient skin inspection and risk scale at
discharge. Accurately document location, stage, risk scale score, and date pressure
ulcer acquired for all patients with pressure ulcers. Perform and document daily risk
scales for patients at risk for or with pressure ulcers. Provide and document pressure
ulcer education for patients at risk for and with pressure ulcers and/or their caregivers.
Establish staff pressure ulcer education requirements.

Community Living Center Resident Independence and Dignity: Provide all care
planned/ordered assistive eating devices to residents for use during meals.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–31, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
March 7, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.    We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Northern Indiana Health Care System, Marion, Indiana,
Report No. 11-00026-146, April 19, 2011). We made a repeat recommendation in QM.

During this review, we presented crime awareness briefings for 48 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
112 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                          2
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met             Twelve months of PRC meeting minutes
       selected requirements:                            reviewed:
        The PRC was chaired by the Chief of Staff        Of the 56 actions expected to be completed,
          and included membership by applicable             39 (70 percent) were not reported to the PRC.
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 X     Specific telemedicine services met selected       Twelve months of MEC meeting minutes
       requirements:                                     reviewed:
        Services were properly approved.                 There was no evidence that the MEC had
        Services were provided and/or received by          approved the use of telemedicine technology
          appropriately privileged staff.                   for teledermatology services.
        Professional practice evaluation information     Neither of the providing facility’s physicians’
          was available for review.                         professional practice evaluation information
                                                            was available for review.




VA OIG Office of Healthcare Inspections                                                                      3
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


NM             Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at      Twelve months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.         For 2 months, less than 75 percent of acute
                                                            inpatients were reviewed.
 X     The process to review resuscitation events         Twelve months of Acute Care Committee
       met selected requirements:                         meeting minutes reviewed:
        An interdisciplinary committee was                There was no evidence that the committee
          responsible for reviewing episodes of care        reviewed each code episode.
          where resuscitation was attempted.               There was inconsistent documentation that
        Resuscitation event reviews included               code reviews included screening for clinical
          screening for clinical issues prior to events     issues prior to code that may have
          that may have contributed to the                  contributed to the occurrence of the code.
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
 X     Critical incidents reporting processes were         The recipient list for the automatic e-mail
       appropriate.                                         notification was not current.
 X     The process to review the quality of entries in     There was no evidence that the quality of
       the EHR met selected requirements:                   entries in the EHR was reviewed. This was a
        A committee was responsible to review              repeat finding from the previous CAP review.
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
 X     The policy for scanning non-VA care                 The scanning policy did not include how a
       documents met selected requirements.                 scanned image is annotated to identify that it
                                                            has been scanned.




VA OIG Office of Healthcare Inspections                                                                      4
                                     CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


NM             Areas Reviewed (continued)                                     Findings
 X     The process to review blood/transfusions           Four months of Transfusion Utilization
       usage met selected requirements:                   Committee meeting minutes reviewed:
        A committee with appropriate clinical             A clinical representative from Anesthesia
         membership met at least quarterly to review        Service did not attend any meetings.
         blood/transfusions usage.                         The review process did not consistently
        Additional data elements were routinely            include the results of proficiency testing and
         reviewed.                                          the results of peer reviews when transfusions
                                                            did not meet criteria.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC.

2. We recommended that the MEC discuss and document its approval of the use of another
facility’s physicians for teledermatology services.

3. We recommended that the facility obtain teledermatology physicians’ professional practice
evaluation information from the providing facility.

4. We recommended that processes be strengthened to ensure that continuing stay reviews
are consistently performed on at least 75 percent of patients in acute beds.

5. We recommended that processes be strengthened to ensure that the Acute Care
Committee reviews each code episode and that code reviews consistently include screening for
clinical issues prior to the code that may have contributed to the occurrence of the code.

6. We recommended that the recipient list for the automated e-mail notification for the patient
incident reporting process is kept current.

7. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed at least quarterly.

8. We recommended that the quality control policy for scanning include how a scanned image
is annotated to identify that it has been scanned.




VA OIG Office of Healthcare Inspections                                                                      5
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


9. We recommended that processes be strengthened to ensure that a member from
Anesthesia Service attends Transfusion Utilization Committee meetings and that the
blood/transfusions usage review process consistently includes the results of proficiency testing
and the results of peer reviews when transfusions did not meet criteria.




VA OIG Office of Healthcare Inspections                                                                   6
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the specialty and primary care clinics, the medical/surgical unit, the CLCs, urgent
care, x-ray, fluoroscopy, and the acute MH unit. In response to comments in the Employee
Assessment Review survey, we also inspected administrative areas, hallways, stairwells,
elevators, and the exterior grounds. Additionally, we reviewed relevant documents, conversed
with key employees and managers, and reviewed 30 employee training records (10 radiology
employees, 10 acute MH unit employees, 5 Multidisciplinary Safety Inspection Team members,
and 5 occasional acute MH unit employees). The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
 X     Fire safety requirements were met.                VHA and local smoking policies reviewed. At
                                                         the Fort Wayne division: 
                                                          We observed and found evidence of smoking
                                                            within 35 feet of entrances and outside
                                                            designated smoking areas. 
                                                          There was no smoking shelter for patients
                                                            and staff.
 X     Environmental safety requirements were met.        We found general building maintenance
                                                            issues at both divisions that included:
                                                               Chipped, cracked, and peeling paint
                                                               Scratched and gouged doors
                                                               Broken floor tiles
                                                               Broken wall mounted dispensers in
                                                                  women’s restrooms
                                                               Broken signs
                                                               Unrepaired walls after sign removal
                                                          We found general cleanliness issues at both
                                                            divisions that included:
                                                               Dirty vents
                                                               Dirty door kick plates
                                                               Dirty stairwells

VA OIG Office of Healthcare Inspections                                                                   7
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


NM           Areas Reviewed for General EOC                                     Findings
                          (continued)
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,       
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
 X     Facility policy addressed frequencies of             The facility did not have a policy addressing
       equipment inspection, testing, and                    the frequency of equipment inspection and
       maintenance.                                          testing.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
 X     Environmental safety requirements in x-ray           Signs were not posted in waiting and
       and fluoroscopy were met.                             procedure rooms asking female patients to
                                                             notify staff if they may be pregnant.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
 X     Medication safety and security requirements          We found expired medications in one of two
       in x-ray and fluoroscopy were met.                    crash carts, and clinical staff did not know
                                                             how to locate the crash cart expiration date.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.




VA OIG Office of Healthcare Inspections                                                                      8
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


NM      Areas Reviewed for Radiology (continued)                             Findings
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for                  
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 X     MH unit staff, Multidisciplinary Safety            Three of the occasional locked MH unit
       Inspection Team members, and occasional             workers had not completed training on
       unit workers received training on how to            identifying and correcting environmental
       identify and correct environmental hazards,         hazards, content and proper use of the MH
       content and proper use of the MH EOC                EOC Checklist, and VA’s National Center for
       Checklist, and VA’s National Center for             Patient Safety study of suicide on psychiatric
       Patient Safety study of suicide on psychiatric      units. 
       units.
       The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional          
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

10. We recommended that the facility comply with VHA and local smoking policies and that
compliance be monitored.

11. We recommended that the VISN 11 Director establish a non-facility team to conduct a
comprehensive EOC evaluation of the facility and ensure that deficiencies are corrected and
that an action plan is developed to ensure the facility is properly cleaned and maintained.

12. We recommended that the facility establish a policy for equipment inspection and testing
and that compliance with the newly established policy be monitored.

13. We recommended that signs be posted in waiting and procedure rooms within radiology
asking female patients to notify staff if they may be pregnant.

14. We recommended that processes be strengthened to ensure that expired medications are
removed from radiology crash carts and clinical staff are trained on how to locate the crash cart
expiration date and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that all occasional locked MH
unit workers receive training on identifying and correcting environmental hazards, content and
proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety study of
suicide on psychiatric units and that compliance be monitored.

VA OIG Office of Healthcare Inspections                                                                     9
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 28 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  10
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN




Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of five patients with specific diagnoses who were discharged
from July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this
topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  11
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 27 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for three randomly selected units—acute medical/surgical unit 4E, CLC-1B, and MH unit
2N—for 50 randomly selected days between October 1, 2012, and September 30, 2013. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  12
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 10 EHRs of patients with pressure ulcers (2 patients with
hospital-acquired pressure ulcers and 8 patients with community-acquired pressure ulcers), and
10 employee training records. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure     The facility did not have an interprofessional
       ulcer committee, and the membership                 pressure ulcer committee.
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were              Two of the 10 EHRs did not contain
       performed upon transfer, change in condition,       documentation that a skin inspection and risk
       and discharge.                                      scale were performed at discharge.
 X     Staff were generally consistent in                 In 6 of the 10 EHRs, staff did not consistently
       documenting location, stage, risk scale score,      document the location, stage, risk scale
       and date acquired.                                  score, or date acquired.
 X     Required activities were performed for             Four of the 10 EHRs did not contain
       patients determined to be at risk for pressure       consistent documentation that staff performed
       ulcers and for patients with pressure ulcers.        daily risk scales.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         None of the EHRs for the applicable eight
       development was provided to those at risk for       patients at risk for/with a pressure ulcer
       and with pressure ulcers and/or their               contained evidence that education was
       caregivers.                                         provided.



VA OIG Office of Healthcare Inspections                                                                     13
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


NM             Areas Reviewed (continued)                                    Findings
 X     The facility defined requirements for staff        The facility had not developed staff pressure
       pressure ulcer education, and acute care staff      ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

16. We recommended that the facility establish an interprofessional pressure ulcer committee.

17. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale at discharge and that compliance be
monitored.

18. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily risk scales for patients at risk for or with pressure ulcers and that
compliance be monitored.

20. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

21. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    14
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 10 EHRs of residents receiving restorative nursing services. We also observed
13 residents during 2 meal periods, reviewed 10 employee training/competency records and
other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 X     Care planned/ordered assistive eating devices      Twelve of the 32 (38 percent) assistive eating
       were provided to residents at meal times.           devices care planned/ordered were not
                                                           provided to residents.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                  15
                                    CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


NM        Areas Reviewed for Assistive Eating                                Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

22. We recommended that processes be strengthened to ensure that all care planned/ordered
assistive eating devices are provided to residents for use during meals.




VA OIG Office of Healthcare Inspections                                                                  16
                                 CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                             Appendix A


              Facility Profile (Fort Wayne/610) FY 2014 through
                                  March 2014a
Type of Organization                                                                     Tertiary
Complexity Level                                                                         2-Medium complexity
Affiliated/Non-Affiliated                                                                Affiliated
Total Medical Care Budget in Millions                                                    $236.9
Number of:
    Unique Patients                                                                     34,682
    Outpatient Visits                                                                   212,240
    Unique Employeesb                                                                   1,564
Type and Number of Operating Beds (January 2014):
    Hospital                                                                            197
    CLC                                                                                 180
    MH                                                                                  30
Average Daily Census (February 2014):
    Hospital                                                                            60
    CLC                                                                                 97
    MH                                                                                  22
Number of Community Based Outpatient Clinics                                             4
Location(s)/Station Number(s)                                                            South Bend/610GA
                                                                                         Muncie/610GB
                                                                                         Goshen/610GC
                                                                                         Peru/610GD
VISN Number                                                                              11




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                     17
                                                             CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                                                         Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                           18
                                                   CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                 19
                                                                                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           20
                            CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                        Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       April 11, 2014

          From:        Director, Veterans in Partnership (10N11)

       Subject: 	      CAP Review of the VA Northern Indiana Health Care
                       System, Fort Wayne, IN

             To: 	     Director, Kansas City Office of Healthcare Inspections
                       (54KC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations in the report of the
       Combined Assessment Program review of the VA Northern Indiana Health
       Care System.

       2. If you have any questions regarding our responses and actions to the
       recommendations in the report, please contact me.


       Thank You

            (original signed by:)
       Paul Bockelman, FACHE
       Network Director, VISN 11




VA OIG Office of Healthcare Inspections                                                          21
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to recommendation 11 in
the OIG report:

OIG Recommendation

Recommendation 11. We recommended that the VISN 11 Director establish a
non-facility team to conduct a comprehensive EOC evaluation of the facility and ensure
that deficiencies are corrected and that an action plan is developed to ensure the facility
is properly cleaned and maintained.

Concur

Target date for completion: May 15, 2014

Facility response: A VISN environment of care Site Visit has been scheduled to be
conducted from May 13 through May 15, 2014, at VA Northern Indiana Health Care
System.




VA OIG Office of Healthcare Inspections                                                         22
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


            Date:      April 11, 2014

            From:      Director, VA Northern Indiana Health Care System (610/00)

       Subject:        CAP Review of the VA Northern Indiana Health Care
                       System, Fort Wayne, IN

             To:       Director, Veterans in Partnership (10N11)

       1. I concur with the VA Northern Indiana Health Care System’s response
       and action plans as detailed within this report.

       Thank you
         




                                           

       Denise M. Deitzen, Director




VA OIG Office of Healthcare Inspections                                                         23
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the PRC.

Concur

Target date for completion: April 9, 2014

Facility response: The Peer Review Committee will monitor actions on a monthly basis.
All delays will be trended and analyzed on a quarterly basis and improvement actions
will be reported to Clinical Executive Board (CEB) during the scheduled quarterly
reports.

Recommendation 2. We recommended that the MEC discuss and document its
approval of the use of another facility’s physicians for teledermatology services.

Concur

Target date for completion: May 30, 2014

Facility response: Telehealth Coordinator coordinates signatures of approval on
Memorandums of Understanding. The Memorandum of Understanding will be reviewed
and approved by the Medical Executive Committee prior to Director approval.
Professional Standards Board members will review the Service Agreement for details of
the bidirectional reporting and frequency of reporting between the Receiving Facility and
the Providing Facility. 

Recommendation 3. We recommended that the facility obtain teledermatology
physicians’ professional practice evaluation information from the providing facility.

Concur

Target date for completion: April 30, 2014

Facility response: The teledermatology providers’ professional practice evaluations will
be requested by VA Northern Indiana Health Care System and will be reviewed by the
Professional Standards Board.




VA OIG Office of Healthcare Inspections                                                         24
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Recommendation 4. We recommended that processes be strengthened to ensure that
continuing stay reviews are consistently performed on at least 75 percent of patients in
acute beds.

Concur

Target date for completion: July 1, 2014

Facility response: Utilization reviews for continued stays will be performed on at least
75 percent of patients in acute beds according to the National Utilization Management
performance measure. Utilization Management nurses will complete weekly audits to
ensure compliance remain at or above 75 percent. Once compliance is sustained at
greater than 75 percent for three consecutive months, the audits will be completed
monthly. The data will be reported to the Utilization Management Committee on a
monthly basis and quarterly to the Clinical Executive Board.

Recommendation 5. We recommended that processes be strengthened to ensure that
the Acute Care Committee reviews each code episode and that code reviews
consistently include screening for clinical issues prior to the code that may have
contributed to the occurrence of the code.

Concur

Target date for completion: May 14, 2014

Facility response: The Acute Care Committee evaluated all codes for the calendar year
of 2013 to ensure that the review of clinical issues prior to each code was assessed.
This was completed during two special sessions on March 11 and March 18, 2014. The
compilation report did not identify any significant findings. The committee will assess
each code episode for potential clinical issues that may have occurred prior to the code
and capture this assessment in the committee meeting minutes.

Recommendation 6. We recommended that the recipient list for the automated e-mail
notification for the patient incident reporting process is kept current.

Concur

Target date for completion: March 27, 2014 and ongoing

Facility response: The recipient list for the email notification for the Critical Incident
Tracking Notification (CITN) was updated on March 3, 2014. A test notification will be
performed semi-annually to assure the list remains up to date and will be discussed in
the VA Northern Indiana Health Care System Surgery Staff Meeting.




VA OIG Office of Healthcare Inspections                                                         25
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Recommendation 7. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed at least quarterly.

Concur

Target date for completion: March 10, 2014

Facility response: The Medical Records Committee met on March 10, 2014, and
developed an action plan to rectify citations. The committee recently assigned a new
chair and the plan is to meet at a minimum on a quarterly basis. The service lines have
been notified of the medical record review schedule and expectations.              Each
service/program will submit aggregate data, recommendations, and action plans if
necessary to the committee. The Medical Records Committee will report discrepancies
quarterly to the Clinical Executive Board.

Recommendation 8. We recommended that the quality control policy for scanning
include how a scanned image is annotated to identify that it has been scanned.

Concur

Target date for completion: June 1, 2014

Facility response: The scanning policy has been revised to include how scanned
images are annotated as being scanned. The draft scanning policy is currently going
through the routing process for final approval.

Recommendation 9. We recommended that processes be strengthened to ensure that
a member from Anesthesia Service attends Transfusion Utilization Committee meetings
and that the blood/transfusions usage review process consistently includes the results
of proficiency testing and the results of peer reviews when transfusions did not meet
criteria.

Concur

Target date for completion: June 1, 2014

Facility response: A designated member from Anesthesia Service has been identified
and will be attending the Transfusion Utilization Committee. This will be tracked by the
attendance roster from the committee meetings. The committee will review the results
of proficiency testing and results of peer reviews when transfusions do not meet criteria
at each meeting.

Recommendation 10. We recommended that the facility comply with VHA and local
smoking policies and that compliance be monitored.

Concur

Target date for completion: August 1, 2014


VA OIG Office of Healthcare Inspections                                                         26
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Facility response: VA Northern Indiana Health Care System police will provide a verbal
or written warning for first time violators who are found to be smoking within 35 feet of
entrances and outside designated smoking areas. Repeated violators will result in the
issuance of Federal Violation Notice (FVN) and a fine. Environmental Safety will
identify locations for ash receptacles and ensure receptacles are in place by
April 30, 2014. Environmental Safety will monitor to ensure that the ash receptacles
remain in the designated areas and report to the Environment of Care Board on a
quarterly basis. A plan has been initiated to determine proper location and structure for
a smoking shelter. This plan will also be monitored through completion on a monthly
basis through the Environment of Care Board.

Recommendation 12. We recommended that the facility establish a policy for
equipment inspection and testing and that compliance with the newly established policy
be monitored.

Concur

Target date for completion: May 1, 2014

Facility response: A Standard Operating Procedure (SOP) was drafted on
April 10, 2014, to ensure that equipment inspection and testing was completed. This
will be monitored by the Radiology Supervisor and reported quarterly to the
Environment of Care Board.

Recommendation 13. We recommended that signs be posted in waiting and
procedure rooms within radiology asking female patients to notify staff if they may be
pregnant.

Concur

Target date for completion: June 1, 2014

Facility response: The Radiology Supervisors evaluated the waiting and procedure
exam rooms and were able to determine where signs were needed. Work orders were
submitted. Temporary signs were placed in the appropriate areas and will be replaced
once the permanent signs arrive.

Recommendation 14. We recommended that processes be strengthened to ensure
that expired medications are removed from radiology crash carts and clinical staff are
trained on how to locate the crash cart expiration date and that compliance be
monitored.

Concur

Target date for completion: July 31, 2014

Facility response: The Pharmacy Procedure 119-35 “Ward Inspections” was revised on
March 12, 2014. 73/73 pharmacy employees have received the training to the revised


VA OIG Office of Healthcare Inspections                                                         27
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


procedure. Results of monthly monitoring will be aggregated and reported quarterly to
the Acute Care Committee by the pharmacy chief or designee.

Recommendation 15. We recommended that processes be strengthened to ensure
that all occasional locked MH unit workers receive training on identifying and correcting
environmental hazards, content and proper use of the MH EOC Checklist, and VA’s
National Center for Patient Safety study of suicide on psychiatric units and that
compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility response: Additional training assignments were made on April 10, 2014, in the
Training Management System (TMS) to ensure the occasional Mental Health Unit
workers are properly trained on how to identify and correct environmental hazards, the
proper use of the Mental Health Environment of Care Checklist, and the VA’s National
Center for Patient Safety study of suicide on Mental Health units. The additional
assignments in TMS were made to the following groups: Environmental Management
Service, Engineering, all Patient Care Support staff not previously assigned including
Registered Nurses, Licensed Practical Nurses, Nursing Assistants, and Student Nurse
Technicians; Medical Clerks, Chaplains, Recreational Clinic staff, Safety Department
staff, and Suicide Prevention Coordinators. The module has been assigned to an
additional 294 staff members. The assignment was expanded to include all Patient
Care staff members; previously the assignment was limited to Mental Health staff only.
The Nurse Managers will track compliance for those assigned to work as relief or
occasional workers in a Mental Health care area. Monthly compliance reports will be
run through TMS by the Education Department and will be reported to the facility
Environment of Care Board.

Recommendation 16. We recommended that the facility establish an interprofessional
pressure ulcer committee.

Concur

Target date for completion: April 30, 2014

Facility response: The Interprofessional Wound Care Committee has been established
and started meeting in January 2014. The committee meets on a quarterly basis.

Recommendation 17. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale at
discharge and that compliance be monitored.

Concur

Target date for completion: July 31, 2014



VA OIG Office of Healthcare Inspections                                                         28
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Facility response: Training has been provided to acute care nursing staff on
January 8–9, 2013, January 22–26, 2013, and February 9–28, 2014, regarding skin
assessments and risk scales to ensure that the documentation tools are utilized to
capture skin inspection and risk scales at discharge. 100 percent of staff will complete
training. New staff will receive training as part of their unit orientation. Acute care
nursing staff will monitor five discharge charts per month for documentation of a patient
skin inspection and risk scale at discharge. The monitor findings will be reported to the
Interprofessional Wound Care Committee. The reviews will continue until 3 concurrent
months are sustained at 100% of appropriate documentation.

Recommendation 18. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: July 31, 2014

Facility response: Training has been provided to acute care nursing staff on
January 8–9, 2013, January 22–26, 2013 and February 9–28, 2014 regarding the
documentation of skin assessments, including location, stage, risk scale score, and date
pressure ulcer was acquired. 100 percent of staff will complete training. New staff will
receive training as part of their unit orientation. Acute care nursing staff will monitor up
to five charts concurrently per month to validate that staff have accurately documented
location, stage, risk scale score, and date pressure ulcer acquired. The monitor findings
will be reported to the Interprofessional Wound Care Committee. The reviews will
continue until 3 concurrent months are sustained at 100% for appropriate
documentation.

Recommendation 19. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily risk scales for patients at risk for or
with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: July 31, 2014

Facility response: Training regarding skin assessments and risk scales has been
provided to acute care RN staff on January 8–9, 2013, January 22–26, 2013 and
February 9–28, 2014. 100 percent of staff will complete training. Compliance will be
monitored by using VA Nursing Outcomes Database (VANOD) Skin Risk Report data to
capture the appropriate documentation of daily risk scales for patients at risk for or with
pressure ulcers. This data will be sent to the Interprofessional Wound Care Committee
on a monthly basis by the Nurse Manager/designee. The reviews will continue until
3 concurrent months are sustained at 100% of appropriate documentation.




VA OIG Office of Healthcare Inspections                                                         29
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


Recommendation 20. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: July 31, 2014

Facility response: A new template was created to document pressure ulcer education.
100 percent of acute care RN staff completed training with the new template in
March 2014. The Nurse Manager/designee will review up to five charts per month of
Veterans at risk for and with pressure ulcers to ensure pressure ulcer education is
documented to patients and/or caregivers.       This data will be reported to the
Interprofessional Wound Care Committee monthly. The reviews will continue until
3 concurrent months are sustained at 100 percent for appropriate documentation.

Recommendation 21. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: April 16, 2014 for initial training and ongoing for new staff

Facility response: RN staff on units caring for Veterans at risk for pressure ulcers
(Community Living Center and Acute Medicine Unit) will receive Level 1 Wound Care
Training. Level 1 training is to be completed by April 16, 2014, for 100 percent of
designated staff. New staff will participate in one of the scheduled monthly online
Level 1 training sessions within 30 days of hire. This training will be added to the RN
New Employee Training Plan for these units. The training will be monitored by the unit
managers on a monthly basis, and will be reported to the Nursing Executive Advisory
Board on a quarterly basis.

Recommendation 22. We recommended that processes be strengthened to ensure
that all care planned/ordered assistive eating devices are provided to residents for use
during meals.

Concur

Target date for completion: April 30, 2014

Facility response: The Nurse Managers and the Registered Dietician reviewed
appropriateness of all currently ordered assistive devices on March 4, 2014. Care
Plans were adjusted to ensure that the appropriate devices were identified. The
assistive devices have been labelled with the appropriate Veteran’s name to assist staff
in providing to the Veterans during meal times. The Clinical Manager will observe
meals on each unit five times per month on the Community Living Center (CLC) units to
verify appropriate assistive devices are available during mealtimes and corrections are
sustained. Monthly monitoring will begin May 1, 2014, and will continue for at least


VA OIG Office of Healthcare Inspections                                                         30
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN


3 months to ensure compliance is above 90 percent. This will be reported to the CLC
Continuous Readiness Committee.




VA OIG Office of Healthcare Inspections                                                         31
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Laura Snow, LCSW, MHCL Team Leader
Contributors            Cindy Niemack-Brown, CMSW, LMHP
                        Stephanie Hensel, RN, JD
                        James Seitz, RN, MBA
                        Larry Selzler, MSPT
                        Gregg Hirstein, Special Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         32
                           CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Veterans in Partnership (10N11)
Director, VA Northern Indiana Health Care System (610/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Daniel Coats, Joe Donnelly, Rob Portman
U.S. House of Representatives: Susan W. Brooks, Robert E. Latta, Luke Messer,
 Todd Rokita, Marlin Stutzman, Jackie Walorski


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         33
                                  CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 2008-052, Smoke-Free Policy for VA Health Care Facilities, August 26, 2008.
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.



VA OIG Office of Healthcare Inspections                                                                             34
                                  CAP Review of the VA Northern Indiana Health Care System, Fort Wayne, IN



5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    35
